FILED
NOV 1 8 2019

CD

3fa Wf)e

Supreme Court of tfje SHntteb States

KENNETH F. JOHNSON, JR.,
Petitioner,
v.
SADIE DARNELL, et al.,
Respondents.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Kenneth F. Johnson, Jr.
2022 Scrub Jay Rd.
Apopka, FL 32703
(352) 642-6361

RECEIVED
JAN 24 2020
OFFICE OF THE CLERK
SUPREME COURT. U S

c

* \

1

QUESTIONS PRESENTED
1.

Review whether my Fourth Amendment right to
be free from unreasonable searches and seizures
was violated after I was falsely arrested, falsely
imprisoned, without probable cause and deprived
120 days of my liberty without due process of law
that my Fourteenth Amendment guarantees; so
as to allows my false arrest, false imprisonment,
and malicious prosecution claims under 42 U.S.C.
§ 1983 to be proper based upon the Fourth Amend­
ment, Fourteenth Amendment and Favorable Ter­
mination in the criminal proceeding unsupported
by a probable cause.
I petitioner followed the Federal Rules of Civil
Procedure (Rule 8) (a)(2), to state a claim for relief,
and my Second Amended Civil Right Complaint
under 42 U.S.C. § 1983 was granted by lower court
for stating plausible enough claims to meet the
general rule for relief upon my supported favora­
ble termination and the Fourth Amendment and
Fourteenth Amendment claims.

2.

Review whether my favorable termination in the
criminal proceeding after I was falsely arrested
and imprisoned and deprived 120 days unsupported
by a probable cause, allows my Fourth Amend­
ment, and Fourteenth Amendment claims under
42 U.S.C. § 1983 to be proper, and also allow my
Second Amended Complaint to be plausible enough
to survive a motion to dismiss.

11

PARTIES TO THE PROCEEDING
Petitioner, who is the appellant below, is Kenneth
F. Johnson, Jr.
Respondents, who are the appellees below, are
Sadie Darnell, Victor Pino Diaz, Daniel Orlando Cruz,
Alachua County (Government Entity), and Mathew Jo­
seph Carson (Respondent Counsel).
RELATED CASES
Kenneth F. Johnson, Jr. v. Sadie Darnell, et al., Case
No. l:17-cv-87-MW-GRJ, United States District Court
for the Northern District of Florida, Gainesville, Divi­
sion, Dated 8/2/2018
Kenneth F. Johnson, Jr. v. Sadie Darnell, et al., Case
No. 18-13594-DD, First District Court of Appeals for
the Eleventh Circuit, Dated 8/21/2019

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..................................

1

PARTIES TO THE PROCEEDING........................

n

RELATED CASES...................................................

n

TABLE OF CONTENTS ..!................................. .

in

TABLE OF AUTHORITIES...................................

v

PETITION FOR A WRIT OF CERTIORARI........

1

OPINIONS BELOW.................................. .............

1

STATEMENT OF JURISDICTION.......................

1

CONSTITUTIONAL AND STATUTORY PROVI­
SIONS INVOLVED.............................................

2

STATEMENT REGARDING ORAL ARGUMENT...

3

STATEMENT OF THE CASE................

4

This Is A Case Of Wrongful Identity

4

Factual Background..........................

7

ARGUMENT.........................................

9

FACTUAL BACKGROUND
Factual Statement
CONCLUSION

11
13
15

APPENDIX
United States Court of Appeals for the Eleventh
Circuit, Opinion, Filed August 21, 2019......... App. 1

IV

TABLE OF CONTENTS - Continued
Page
United States District Court for the Northern
District of Florida, Order Accepting Report
and Recommendation, Filed August 2,2018 App. 7
United States District Court for the Northern
District of Florida, Report and Recommenda­
tion, Filed July 13, 2018
App. 9

V

TABLE OF AUTHORITIES
Page
Cases
Ashcroft v. Iqbal, 566 U.S. 662 (2009)

9,10,11,17

Ass’ri of Cleveland Fire Fighter v. City of Cleve­
land, Ohio, 502 F.3d 545 (6th Cir. 2007)..........

11

Bell Atlantic v. Twombly, 550 U.S. 544 (2007).... 10,11,17

6,10,14,17
Dioguardi v. Durning, 139 F.2d 744 (2d Cir. 1944).
6
Flanory v. Bonn, 604 F.3d 249 (6th Cir. 2010)....
10
Conley v. Gibson, 355 U.S,. 41 (1957)

Fritz v. Charter Twp. of Comstock, 592 F.3d 718
(6th Cir. 2010).........................................................

11

Golden v. City of Columbus, 404 F.3d 950 (6th
Cir. 2005).................................................................

10

Haines v. Kerner, et al., 925 S.Ct. 594, 404 U.S.
519(1972)...............................................................
Heck v. Humphrey, 512 U.S. 477 (1994)................
Johnson v. City of Shelby, 135 S.Ct. 346 (2014)...
Manuel v. City of Joliet, 137 S.Ct. 911 (2017)......
Monroe v. Pape, 365 U.S. 167 (1961)......................
Newsome v. McCabe, 256 F.3d 747 (2001)............
Pearson v. Callahan, 555 U.S. 223 (2009)............
Posr v. Doherty, 944 F.2d 91 (2d Cir. 1991)...........
Scheuer v. Rhodes, 416 U.S. 232 (1974).................
Wallace v. Kato, 549 U.S. 384 (2007).....................

6
3
15
7
13
7
3
13
16
7

VI

TABLE OF AUTHORITIES - Continued
Page
Constitutional Provisions
U.S. Const. Amend. I...........

7

U.S. Const. Amend. IV........

passim

U.S. Const. Amend. V...........

8,12,13

U.S. Const. Amend. XIV......

passim

Statutes
42 U.S.C. § 1983..................................

passim

Florida Statute Flee/elude 316.1935

8

Rules
Fed. R. Civ. P. 8(a)(2)

3, 4, 6, 9,14

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Kenneth Fernandez Johnson, Jr., re­
spectfully petitions for writ of certiorari to review the
reversed judgment of my Second Amended Complaint
that was granted by the District Court. Then later un­
fairly with prejudice heightened pleading standard’s,
and holding me pro se pleader to a much greater strin­
gent standard like I am a lawyer upon the respondents’
lawyer motion to dismiss on the grounds of not stating
a claim for relief accordingly to his standards.

OPINIONS BELOW
The opinion of the United States Court of Appeals
is submitted with petition.

STATEMENT OF JURISDICTION
This is an appeal from the final judgment of the
District Court who has Jurisdiction pursuant to 42
U.S.C. § 1983.
I, plaintiff, have brought a Civil Rights claim against
Defendant Sheriff, and Defendant Deputies for the
deprivation of my liberty without due process and chal­
lenged the Federal Statute, the District Court’s final
order in dismissing all claims in the same case that all
claims were previously granted. By the District Court.
The final judgment was entered on 8/28/18.1 filed a no­
tion to appeal for the Appeal from the United States

2

District 8/22/2018. The United States District Court
Affirmed 8/21/19.

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
Section 1983 of Title 42 of the U.S. Code provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, or
any State or Territory or the District of Co­
lumbia, subjects, any citizen of the United
States or other person within the Jurisdiction
thereof to the deprivation of any rights, privi­
leges or immunities secured by the Constitu­
tion and laws, shall be liable to the party
injured in an action at law, suit in equity, or
other proper proceeding for redress * * *
The Fourth Amendment provides:
The Right of the People to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures and shall
not be violated, and no Warrants shall issue,
but upon probable cause, supported by Oath
of affirmation, and particularly describing the
place to be searched, and, the persons or
things to be seized.
Qualified immunity protects “all but the plainly
incompetent and those who knowingly violate the law.”
And a Section 1983 suit for unlawful arrest cannot sur­
vive unless the underlying criminal violation had a

3

favorable outcome. Heck v. Humphrey, 512 U.S. 477,
489 (1994), Pearson v. Callahan, 555 U.S. 223 (2009).
For these reasons and those that follow, the court
should grant the petition and reverse the judgment by
lower court.
Favorable Termination Rule: Oct. 24,2016 in Heck
v. Humphrey, 512 U.S. 477 (1994), the Supreme Court
ruled that a prisoner could not bring a suit for damages
for an unconstitutional conviction or imprisonment,
unless and until the underlying conviction has been re­
versed or invalidated.
Federal Rules of Civil Procedure (Rule 8) the gen­
eral rule pleading for claiming for relief.

STATEMENT REGARDING ORAL ARGUMENT
Plaintiff-Appellant Kenneth F. Johnson, Jr., re­
quests an oral argument regarding the District Court
Err in the Ruling to Dismissed My Second Amended
Complaint that Was Previously granted by the same
District Court.
This case involves a law abiding citizen of the
United States who was deprived of his liberty without
due process of law by government officials who was act­
ing under color of law with the scope of their employ­
ment when they caused, influenced, and/or participated
in the deprivation of my liberty.

4
Since I presented a certified Case Action Report
from the State Attorney Office to the District Court
that proves that I did not commit the crime(s) alleged
and I also submitted the proof to court the individual
who committed the crime that was alleged.
Oral argument will aid the Court by allowing the
parties to explore the issues presented in this appeal
and respond to any inquiries raised.
My Second Amendment Complaint that granted
are plausible to claim a relief and meets the Federal
Rules of Civil Procedure (Rule 8(a)(2)), to state a claim
for relief.
My Second Amended Complaint Under 42 U.S.C.
§ 1983 was granted by the lower court based upon the
Federal Rules of Civil Procedure (Rule 8) the general
rule pleading for claiming for relief.
I submitted several supporting documents and
one photo with my Second Amended complaint as evi­
dence to support my claims for relief and prove to the
court beyond doubt that all my factual allegations are
true upon the grounds that I am entitled to a relief.

STATEMENT OF THE CASE
This Is A Case Of Wrongful Identity
* I the petitioner received a favorable termination
in my proceeding.

5

State Attorney made it clear in the Case Action
Report: That I the Petitioner “Did not commit the
Crime(s) Alleged” (Which mean everything fabricated
statement and testimony that the respondent deputies
said about me in their police report, and sworn com­
plaint is false beyond doubt.)
* I also submitted the photo of the driver who was
identified by several witnesses as committing the
crime during the criminal proceeding. For the record
the identified driver looks nothing like me. (He was
much taller, heavier, full of grey hair).
Because the respondent’s deputies’ hunch of an in­
admissible invalid 13 yrs. old driver license that they
claimed was found in car, and they chose not gathering
more supporting information and evidence before they
wrongfully identified me as committing a crime.
The respondent deputies neglect cause my Fourth
Amendment right to be free from unreasonable searches
and seizures to be violated after I was falsely arrested,
falsely imprisoned, maliciously prosecuted without
probable cause and deprived 120 days of my liberty
without due process of law that my Fourteenth Amend­
ment guarantees; so as to allows my false arrest, false
imprisonment, and malicious prosecution claims Un­
der 42 U.S.C. § 1983 to be proper based upon the
Fourth Amendment, Fourteenth Amendment and Fa­
vorable Termination in the criminal proceeding unsup­
ported by a'probable cause
The lower courts unfairly with prejudice, heighted
pleading standard’s, and holding pro se pleader to a

6
much greater stringent standard like I am a lawyer
upon the respondents’ lawyer motion to dismiss my
complaint on the grounds of not stating a claim for re­
lief to his standards and not rule 8.
The lower court errs in dismissing my granted
Second Amended Complaint under such standards,
and deny me the relief that I am entitled to base upon
amendments, Federal Rules of Civil Procedure (Rule 8)
statutes, factual allegations, authorities’ cases, evi­
dence, and facts regarding my complaint, that I de­
scribed more fully above and below would be
contradicting, conflicting, unfair, unconstitutional and
violation of my civil rights.
Conley’s statement construing Rule 8: “a com­
plaint should not be dismissed for failure to state a
claim unless it appears beyond doubt that the plaintiff
can prove no set of facts in support of his claim which
would entitle him to relief.” 355 U.S. at 45-46.
I am asking the Supreme Court to correct the
lower court err in dismissing my 2nd amended com­
plaint by a heightened pleading standard, by holding
my pro se 2nd Amended granted Complaint and all my
allegations described more fully above and below in my
complaint back to a less stringent standard construing
Rule 8, by doing so the judgment regarding my com­
plaint will be reversed back, and remanded. See Conley
v. Gibson, 355 U.S. 41,45-46 (1957); Dioguardi v. Durning, 139 F.2d 744 (2d Cir. 1944); Haines v. Kerner, et al.,
925 S.Ct. 594, 404 U.S. 519.

7

Factual Background
I, petitioner Kenneth F. Johnson, was falsely ac­
cused, falsely identified, wrongfully arrested, unlaw­
fully arrested, and unlawfully prosecuted for a crime
that I did not commit without due process of law.
The Defendant deputies individually, jointly and
in conclusion with each other had written a false Dep­
uty Report and Sworn Complaint accusing and falsely
identifying me for Fleeing/Eluding while acting under
the color of law within the scope of their employment
that participated, caused, and/ or influenced my pic­
ture and name to be posted on Sunday Edition of Ala­
chua County Most Wanted for a crime that I did not
commit on 7/31/2016, which was defamation of my
character and violation of my 1st Amendment rights of
the U.S. Constitution. The Defendants claimed to find
and used a fabricated inadmissible 13 yrs. Old driver
license in the car, without gathering additional sup­
ported evidence, or fingerprints in the abandoned ve­
hicle to support their hunch before writing sworn
complaint, and false fabricated testimony to the judge
to obtain a warrant to be issued for my arrest. The fab­
ricated evidence was only evidence the judge relied on
before a warrant was issued for my arrest resulting in
my pretrial detention. See Manuel u. City of Joliet, 137
S.Ct. 911, 915 (2017); see also Wallace v. Kato, 549 U.S.
384 (2007); Newsome v. McCabe, 256 F.3d 747 (2001)
8/1/2018, I emotionally turned myself in to the
Alachua County Jail. The total of 120 days of my lib­
erty was deprived without due process of law, which is

8
a violation of my 4th, 5th and 14th Amendments
Rights of the U.S. Constitution.
The Flee/Elude Charge (316.1935) that defend­
ants wrongfully accusing me committing in their re­
port don’t meet the arresting elements and guide lines
of the 2016 Florida Statute to make arrest any citizen.
This relevant fact makes the deprivation of my liberty
unlawful and unconstitutional and violation of my
Fourth and Fourteenth Amendment.
The Defendant Deputies stated several times in
report they were on foot patrol and not a duly author­
ized law enforcement patrol vehicle, with agency insig­
nia and other jurisdictional markings prominently
displayed on the vehicle that’s required to meet the
Flee/Elude Charge elements. The relevant facts make
the deprivation of my liberty without due process un­
lawful and violation of my 4th and 14th Amendment of
the U.S. Constitution.
On 11/18/2016, the State Attorney determined
that I did not commit the crime(s) alleged. I also re­
ceived a certified copy of the Case Action Report dis­
missing all charges (Favorable Termination). The
Defendant Deputies misconduct that I described more
fully above are the reason that I am suffering mentally,
physically, financially, emotionally and spiritually. I
lost employment, force to homeless, behind in child
support, businesses, not for profit destroyed, lost grant
opportunities, partnership, friendships, denied em­
ployment and etc. The Defendant Deputies are both
liable for all of my claims in my complaint and

r r

9
Defendant Sheriff are liable for the Monell Claim and
all needs to be held accountable for the relief that I am
entitled to.
I filed a civil rights complaint under 42 U.S.C.
§ 1983 against the Defendant Deputies and sheriff
upon the Fourth Amendment and my Second Amended
Complaint was granted by the lower court.
The 42 U.S.C. § 1983, say that I am entitled to a
relief for the deprivation of my liberty without due pro­
cess of law if the government official is acting under
the color of law within the scope of their employment
when I suffered as I described more fully above.

ARGUMENT
I filed my Seconded Amended complaint with
plausible claims upon the Fourth Amendment for relief
by following the Federal Rules of Civil Procedure (Rule
8) the general rule pleading for claiming for relief.
My Second Amended complaint exceeded the short
and plain statement showing that I am entitled to re­
lief just as Rule 8. Pleading standard prescribed in
Rule 8(a) does not require a plaintiff to set forth “detail
factual allegations”, my complaint described more fully
above also exceeded “more than an unadorned, the defendant-unlawfully-harmed-accusation.” See Ashcroft
v. Iqbal, 566 US. 662, 678 (2009). Rule 8(a)(2) only re­
quires me the plaintiff “to give the defendant fair no­
tice of what the claim is and the grounds upon which

10
it rests.” See Bell Atlantic u. Twombly, 550 U.S. 544,555
(2007) (alteration in original) (quoting Conley v. Gib­
son, 355 U.S. 41, 47 (1957)).
Rule 8(a)(2) “requires a ‘showing,’ ‘rather than
blanket assertion.’” Of entitlement to relief. Id. at 555
& n.3. “A motion to dismiss for failure to state a claim
is a test of the plaintiff’s cause of action as stated in
the complaint, not a challenge to the plaintiff’s factual
allegations.” Flanory v. Bonn, 604 F.3d 249, 252 (6th
Cir. 2010) (quoting Golden v. City of Columbus, 404
F.3d 950, 958-59 (6th Cir. 2005) (internal quotation
marks omitted)).
“[0]nly a complaint that states a plausible claim
for relief survives a motion to dismiss.” Iqbal, 556 U.S.
at 679. “A claim has facial plausibility when plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.” Id. at 678 (citing Twombly,
550 U.S. at 556). The reviewing court must determine
not whether the plaintiff will ultimately prevail, but
whether the facts permit the court to infer “more than
the mere possibility of misconduct,” which is “a con­
text-specific task that requires the reviewing court to
draw on judicial experience and common sense.” Id. at
679; Twombly, 550 U.S. at 570 (holding that a com­
plaint is subject to dismissal where plaintiffs failed to
“nudg[e] their claims across the line from conceivable
to plausible”). Although a court must take all factual
allegation in the complaint as true when addressing
a motion to dismiss,” [t]hread bare recitals of the
elements of a cause of action, supported by mere

11
conclusory statements, do not suffice,” and a plaintiff’s
legal conclusion couched as factual allegations need
not be accepted as true. Iqbal, 556 U.S. at 678; see Fritz
v. Charter Twp. of Comstock, 592 F.3d 718, 722 (6th Cir.
2010). Therefore, to survive motion to dismiss, a plain­
tiff’s “[f] actual allegations in the complaint are true.”
SeeAss’n of Cleveland Fire Fighter v. City of Cleveland,
Ohio, 502 F.3d 545, 548 (6th Cir. 2007) (alteration in
original) (quoting Twombly, 550 U.S. at 555) (internal
quotation marks omitted).

FACTUAL BACKGROUND
My Second Amended Complaint that was granted
with my favorable termination informed and showed
to the court that the Defendant Deputies who are gov­
ernment official were acting under the Color of Law
within the scope of their employment when they a
written a false Deputy Report falsely accusing and
wrongfully identified me of committing an alleged
crime that I did not commit that influence and caused
the total of 120 days of my liberty to be deprived with­
out due process and the defamation of my character
when I was posted on Alachua County Most Wanted.
The Defendant Deputies denied me of the due pro­
cess of law which violates my Fourteenth Amendment
while they were acting under the color of law within
the scope of their employment that cause and influ­
enced the defamation of my character and deprivation

12
of 120 days of my liberty which violates my Fourth and
Fourteenth Amendments.
My legal proceeding wasn’t fair. The Procedural
Due Process - my proceeding - wasn’t in accordance
with the rules of law that cause my liberty to be de­
prived. I was never contacted for questioning of the al­
leged crime, nor shown a supported cause or fabricated
evidence. I never had any personal contact with the de­
fendant’s deputies during or after the alleged crime
happen but yet my liberty was deprived without due
process and no probable cause.
The legal proceeding was not fair and I was de­
prived of my liberty that my 4th, 5th, and 14th Amend­
ment guaranteed to protect me from. The Defendants
failed to provide adequate procedures of the due pro­
cess before they influence and cause the deprivation of
my liberty by submitting fabricated inadmissible evi­
dence, and fabricated testimony falsely accusing and
wrongfully identifying me of a crime that I did not com­
mit to the.
The Defendants denied me of due process of law
that cause and influence the deprivation of my liberty
which violates my 4th, 5th, and 14th Amendment of
the U.S. Constitution that cause me to suffer mentally,
physically, financially, emotionally and spiritually.
They are liable and needs to be held accountable for
the relief that I entitled to under 42 U.S.C. § 1983 Stat­
ute in which my Second Amended Complaint was
Granted under that Statute.

13
Factual Statement
42 U.S.C. § 1983 provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within
the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in
equity, Or other proper proceeding for redress.
The Defendants Deputies cause and influence the
deprivation of my liberty described more fully above
while they were acting under the color of law within the
scope of their employment which violated my 4th, 5th,
and 14th constitutional rights of the U.S. Constitution.
They are liable for the relief that I am entitled to. See
Monroe v. Pape, 365 U.S. 167 (1961); Posr v. Doherty,
944 F.2d 91 (2d Cir. 1991) and the Defendant Sheriff
failure to institute and identification procedure in place
that would of disclose the error and prevented me being
victimize from the deputies’ misconduct caused the
deprivation of my liberty without due process of law.
I’m asking the court also to review focus and
consider my prolonged detention cause by failure to
institute adequate identification procedures, the con­
stitutional provision violated by the Defendant Sheriff
actions is presumably the Fourteenth Amendment pro­
tection deprivation of liberty without due process of
law. I filed an internal investigation complaint at the

14
Alachua County Sheriff office. The Defendant Sheriff
failure respond, and failed to adopt the necessary poli­
cies, procedures, supervision and training that pre­
vent, reduce, and/or eliminate the risk of such
“mistaken identity” arrests.
Every statement regarding me in that Deputy Re­
port is false with any possibilities of being true. I pre­
sented witnesses and evidence to the State Attorney on
my behalf to prove my innocence and that I did not
commit the crime. The defendant deputy used inadmis­
sible evidence to cause and influenced the deprivation
of my liberty without due process of law.
a. My complaint met the Fed. R. Civ. 8(a) plead­
ing requirements of a short and plain statements of my
plausible claim showing that I am entitled to relief. My
case should have been decided on merits rather than
approaching my pleading as a game of skill in which
one misstep or misunderstanding as an inexperience
Pro Se Filer may be decisive to the outcome of my com­
plaint and plausible claims. Being dismissed. See Con­
ley v. Gibson, 355 U.S. 41,47-48 (1957) my claims in my
complaint are plausible. The Federal Rules of Civil
Procedure do not require a claimant to set out in detail
the facts upon which he bases his claim. “Instead, a
complaint is sufficient if it “give[s] the defendant fair
notice of what the plaintiff’s claim is and the grounds
upon which it rests, the accepted rule that a complaint
should not be dismissed for failure to state a claim un­
less it appears beyond doubt that plaintiff can prove no
set of facts in support of his claim which would be en­
title him to relief.” 355 U.S. at 45-46.

15
I submitted a certified document to support and
prove that all my factual allegation in my complaint is
true and all of my claims are plausible and can be
proven to be true upon the Fourth and Fourteenth
Amendment and survive a motion to be dismiss.
b. The District Court err in dismissing my Sec­
ond Amended Complaint.
My complaint made out a prima facie case by
showing, first intent to confine, second acts resulting in
confinement, and third consciousness of the victim of
confinement that resulted in harm. My 4th and 14th
Amendment rights were violated and the all of the de­
fendants described more fully above is liable for the re­
lief that I am entitled to.
c. The Court err in dismissing my Second
Amended Complaint
The Federal of Civil Procedure do not require a
statement of the legal theory supporting the claim. See
Johnson v. City of Shelby, 135 S.Ct. 346 (2014).

CONCLUSION
I, Kenneth Johnson, who is a law abiding citizen,
chaplain, community leader, father who suffered when
I was deprived the total of 120 days of my liberty in jail
without supported probable cause nor due process of
law that violated my Fourth and Fourteenth Amend­
ment rights of the United States Constitution.

16
I suffered from the defamation of my character
and lost everything that I worked blood, sweat, and
tears for, when I was post on the local edition for Ala­
chua County Most Wanted that I more fully above for
a crime that I did not commit. The Defendant Deputies
written false report wrongfully and falsely accusing
and identifying me of the alleged crime while they act­
ing under the Color of Law within the scope of their
employment are what cause and influenced the depri­
vation of my liberty and defamation of character that
cause me to suffer mentally, physically, financially,
emotionally, and spiritually in my mind, body, soul and
spirit in the past, present, and future.
The Respondents that I described in more fully
above and in my 2nd Amended Complaint that was
granted by the District Court are liable and responsi­
ble for the relief that I am entitled to for the violation
of my 4th and 14th Amendments of the U.S. Constitu­
tion.
The Factual allegation of a complaint are assumed
true and construed in favor of the plaintiff, even if it
strikes a sawt judge that actual proof of those facts is
improbable and “that a recovery is very remote and un­
likely.” Id. at 556 (quoting Scheuer v. Rhodes, 416 U.S.
232, 236 (1974).
The factual allegation is true and all of my claims
are plausible and I proved all of my claims to be true.
I plaintiff gave the Respondent fair notice and short
and plain statement of my claims are upon which
grounds rest on. Rule 8 “a complaint should not be

17
dismissed for failure to state a claim unless it appears beyond doubt that plaintiff can prove no set of facts in
support of his claim which would be entitle him to re­
lief.” See Conley u. Gibson, 355 U.S. at 45-46. Swanson
v. Citibank.” See Bell Atlantic v. Twombly, 550 U.S. 544,
555 (2007) and Ashcroft v. Iqbal, 556 U.S. 662 (2009)
Note to Supreme Court: I did not waive my rights
to oppose, make any argument or objections to the
magistrate judges and recommendation, my brief on
appeal by choice. I was hit by a car on 10/13/2017 while
riding my bike that injured my knee and cause a se­
vere spine injury. The pain pills and injuries interfered
with my comprehension and focus on my case while I
recovery. Please do not be prejudice towards me for fail­
ing to respond to lower courts but examine the factual
allegation that my Second Amended Complaint was
granted upon described more fully above.
For the foregoing reasons described more fully
above regarding my Second Amended Complaint, I am
asking this U.S. Supreme Court to grant my Writ of
Certiorari, please protect me as Pro Se reverse the de­
cision of the lower courts and allow me to remand for
further proceedings.
Respectfully submitted,
Kenneth F. Johnson, Jr.
2022 Scrub Jay Rd.
Apopka, FL 32703
(352) 642-6361

